No. 20-

INTHE

&upmne C!lnurt nf t!Je ltriteb &fates
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,

Petitioner,

v.
SHAWNE ALSTON, et al.,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 15th day of October, 2020, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

~/2_ ?tJ~¼f:>

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

SERVICE LIST
BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
PROSKAUER ROSE LLP
2029 Century Park East, Suite 2400
Los Angeles, CA 90067
bwilliams@proskauer.com
scooper@proskauer.com
kcasazza@proskauer.com
Counsel for Pac-12 Conference
LEANE K. CAPPS
POLSINELLI PC
2950 North Harwood St., Suite 2100
Dallas, TX 75201
lcapps@polsinelli.com
AMY D. FITTS
POLSINELLI PC
900 West 48th Pl., Suite 900
Kansas City, MO 64112
afitts@polsinelli.com
Counsel for The Big 12 Conference, Inc.
and Conference USA
MARK A. CUNNINGHAM
JONES WALKER LLP
201 St. Charles Ave., 50th Floor
New Orleans, LA 70170
mcunningham@joneswalker.com
Counsel for Sun Belt Conference

JON BRADLEY
BRADLEY DEVITT HAAS & WATKINS, P.C.
2201 Ford Street
Golden, CO 80401
Jon@goldenlawyers.com
Counsel for Western Athletic Conference
ROBERT W. FULLER, III
ROBINSON, BRADSHAW &
HINSON, P.A.
101 North Tryon St., Suite 1900
Charlotte, N.C. 28246
rfuller@rbh.com
MARK SEIFERT
SEIFERT LAW FIRM
50 California St., Suite 1500
San Francisco, CA 94111
mseifert@seifertfirm.com
Counsel for Southeastern Conference
R. TODD HUNT
WALTER HAVERFIELD LLP
The Tower at Erieview
1301 East 9th St., Suite 3500
Cleveland, OH 44114
rthunt@walterhav.com
Counsel for Mid-American Conference

ANDREW J. PINCUS
CHARLES A. ROTHFELD
MAYER BROWN LLP
1999 K St. N.W.
Washington, D.C. 20006
apincus@mayerbrown.com
crothfeld@mayerbrown.com
BRITT M. MILLER
MAYER BROWN LLP
71 South Wacker Dr.
Chicago, IL 60606
bmiller@mayerbrown.com
Counsel for The Big Ten Conference, Inc.
MERYL MACKLIN
BRYAN CAVE LEIGHTON PAISNER LLP
Three Embarcadero Center, 7th Floor
San Francisco, CA 94111
meryl.macklin@bclplaw.com
RICHARD YOUNG
BRYAN CAVE LEIGHTON PAISNER LLP
90 South Cascade Ave., Suite 1300
Colorado Springs, CO 80903
richard.young@bryancave.com
Counsel for Mountain West Conference
BENJAMIN C. BLOCK
COVINGTON & BURLING LLP
One CityCenter
850 Tenth St. N.W.
Washington, D.C. 20001
bblock@cov.com
Counsel for the American Athletic
Conference

D. ERIK ALBRIGHT
FOX ROTHSCHILD LLP
300 North Greene St.,
Suite 1400
Greensboro, N.C. 27401
ealbright@foxrothschild.com
JONATHAN P. HEYL
FOX ROTHSCHILD LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
jheyl@foxrothschild.com
CHARLES L. COLEMAN, III
HOLLAND & KNIGHT LLP
50 California St., Suite 2800
San Francisco, CA 94111
ccoleman@hklaw.com
Counsel for Atlantic Coast Conference

STEVEN W. BERMAN
HAGENS BERMAN SOBOL SHAPIRO LLP
1301 Second Avenue, Suite 2000
Seattle, WA 98101
(206) 623-7292
steve@hbsslaw.com

JEFFREY L. KESSLER
WINSTON & STRAWN LLP
200 Park Avenue
New York, NY 10166-4193
(212) 294-6700
jkessler@winston.com

ROBERT B. CAREY
HAGENS BERMAN SOBOL SHAPIRO LLP
11 West Jefferson Street, Suite 1000
Phoenix, AZ 85003
(602) 840-5900
rob@hbsslaw.com@hbsslaw.com

LINDA T. COBERLY
WINSTON & STRAWN LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
lcoberly@winston.com

BRUCE L. SIMON
PEARSON, SIMON & WARSHAW LLP
350 Sansome Street, Suite 680
San Francisco, CA 94104
(415) 433-9000
bsimon@pswlaw.com
Class Counsel for the Consolidated
Action Plaintiffs

JEANIFER E. PARSIGIAN
WINSTON & STRAWN LLP
101 California Street, 35th Floor
San Francisco, CA 94111
(415) 591-1000
jparsigian@winston.com
Class Counsel for the Consolidated
Action Plaintiffs

ELIZABETH C. PRITZKER
PRITZKER LEVINE LLP
1900 Powell Street, Suite 450
Emeryville, CA 94608
(415) 692-0772
ecp@pritzkerlevine.com
Additional Class Counsel

